Top 10 Management Challenges
Major Challenges for the Department


The Office of Inspector General, in assessing its work at the close
of each semiannual period, develops its list of Top 10 Manage-                         TOP 10 MANAGEMENT CHALLENGES
ment Challenges the Department faces. Each challenge meets                               1.	 Strengthen Department-wide information security.
one or more of the following criteria: (1) it is important to the                        2.	 Effectively manage departmental and bureau acquisi-
Department’s mission or the nation’s well-being, (2) it is com-                              tion processes.
plex, (3) it involves sizable resources or expenditures, or (4) it
                                                                                         3.	 Strengthen internal controls over financial, program-
requires significant management improvements. Because of the
                                                                                             matic, and business processes.
diverse nature of Commerce activities, these criteria sometimes
cut across bureau and program lines. Experience has shown that                           4.	 Ensure that USPTO uses its authorities and flexibilities
by aggressively addressing these challenges the Department can                               as a performance-based organization to achieve better
                                                                                             results.
enhance program efficiency and effectiveness; eliminate serious
operational problems; decrease fraud, waste, and abuse; and                              5.	 Control the cost and improve the accuracy of the de-
achieve substantial savings.                                                                 cennial census.
                                                                                         6.	 Effectively manage the development and acquisition of
                                                                                             environmental satellites.
                                                                                         7.	 Promote fair competition in international trade.
Challenge 1                                                                              8.	 Effectively manage noaa’s stewardship of ocean and
                                                                                             living marine resources.
Strengthen Department-wide                                                               9.	 Aggressively monitor emergency preparedness, safety,
Information Security                                                                         and security responsibilities.
                                                                                       10.	 Enhance export controls for dual-use commodities.
In the 4 years since enactment of the Federal Information Security
Management Act (FISMA), government agencies have devoted
significant resources to improving the security of information
stored on their computer systems. The problem is long-standing:                      NOAA had significantly enhanced risk assessments, security plans,
GAO has identified information security as a government-wide                         and testing, while Census’s security plans were more comprehen-
high-risk issue every year since 1997. At Commerce, it is the                        sive than in the past.
number one challenge, and has been a material weakness since
2001.                                                                                However, because of the testing deficiencies we still found and
                                                                                     the few packages available for review, we have concluded that
To eliminate the material weakness, Commerce has emphasized                          the Department’s C&A process has not improved to the point
improving its certification and accreditation (C&A) process for                      where authorizing officials have sufficient details about remain-
IT systems. In initiating an effort in February 2005 to enhance the                  ing system vulnerabilities to make fully informed accreditation
quality of its C&A packages, its chief information officer issued a                  decisions. Therefore, we concluded that the IT security material
plan to produce acceptable quality C&A packages for all national-                    weakness remains.
critical systems and some mission-critical systems by the end of
FY 2005 and for all other systems by the end of FY 2006. Given                       Our forthcoming report on our review of NOAA will contain rec-
the plan, our approach to the C&A portion of our 2005 FISMA                          ommendations for improving that agency’s C&A packages and its
evaluation was to review all improved packages available by Au-                      process for managing the correction of security weaknesses. These
gust 31, 2005. Only five were ready—three from NOAA and two                          recommendations may inform efforts Department-wide.
from Census—but these showed some noteworthy improvements.
                                                                                     Commerce officials have continued to make clear their commit-
                                                                                     ment to working with us to strengthen the C&A process. At the
2
 The schedules provided by the Department’s CIO Office in June indicated that
more than 20 C&A packages would be available by August 31, 2005. The CIO
                                                                                     request of the Department’s acting CIO, we presented the findings
subsequently reported that by September 30, C&A packages for all national-critical   from our 2005 FISMA evaluation of C&A packages at the Decem-
systems and over half of the mission critical-systems had been improved.             ber CIO Council meeting. The meeting gave us the opportunity



March 2006/Semiannual Report to Congress	                                                                                                               
Major Challenges for the Department




                                                                      FISMA Focus on Authenticating
    Excerpt: Management of                                            Remote Users
    Federal Resources, OMB
    Circular A-130                                                    Another focus of our FY 2005 work was e-authentication risk
                                                                      assessments for selected Department systems. E-authentication
    Safeguards. Agencies shall:                                       is the process of electronically verifying the identities of users
                                                                      accessing government services over the Internet and is crucial to
         (a) Ensure that information is protected commensurate
                                                                      the Department’s ability to properly authorize access to data and
         with the risk and magnitude of the harm that would
         result from the loss, misuse, or unauthorized access         hold users accountable for their actions.
         to or modification of such information;
                                                                      As part of our review, we evaluated the quality of NOAA’s e-
         (b) Limit the collection of information which identifies
                                                                      authentication risk assessment process for its Search and Rescue
         individuals to that which is legally authorized and
                                                                      Satellite Aided Tracking System (SARSAT)—the U.S. portion of
         necessary for the proper performance of agency
         functions;                                                   an international program that uses satellites to coordinate search and
                                                                      rescue activities. We identified a number of problems with the risk
         (c) Limit the sharing of information that identifies         assessment as well as ways to strengthen the process and minimize
         individuals or contains proprietary information to that      the potential for unauthorized access to critical systems such as
         which is legally authorized, and impose appropriate          SARSAT, while improving user accountability. We will detail our
         conditions on use where a continuing obligation to           findings and recommendations in our next semiannual report.
         ensure the confidentiality of the information exists;

         (d) Provide individuals, upon request, access to
         records about them maintained in Privacy Act
         systems of records, and permit them to amend such            Challenge 2
         records as are in error consistent with the provisions
         of the Privacy Act.                                          Effectively Manage
                                                                      Departmental and Bureau
                                                                      Acquisition Processes
to discuss the deficiencies, offer technical advice, and answer
                                                                      Commerce spends nearly $2 billion annually on goods and ser-
questions from the Department, bureau CIOs, and IT security
                                                                      vices—roughly a third of its annual appropriation—and each year
officers. Our hope is that this interchange will continue and will
                                                                      relies more on contractors to support its mission-critical work.
enable Commerce to eliminate the problems with testing we have
                                                                      Adequate oversight of acquisition planning and execution is es-
consistently noted, and to produce packages that fully support
                                                                      sential to ensuring that taxpayer dollars are spent effectively and
system accreditation decisions. The acting CIO is working with
                                                                      efficiently and procurement laws and regulations are followed.
the operating units to identify the packages that will be available
for our FY 2006 FISMA review.
                                                                      The Census Bureau’s contracting for products and services to support
                                                                      2010 decennial operations continues to bear watching. The bureau
C&A Weaknesses at USPTO                                               estimates that 17 percent ($1.9 billion) of its 2010 budget will be
                                                                      spent on contracts for information technology systems, advertis-
In a separate FISMA review, we looked at two packages from the        ing, and leases for local office space. One key IT program—Field
United States Patent and Trademark Office (USPTO). In FY 2004,        Data Collection Automation (FDCA)—will develop the handheld
we had found this agency’s C&A process to be strong. However,         mobile computers that field staff will use to collect 2010 decennial
our FY 2005 assessment noted shortfalls in USPTO’s monitor-           information. This is a critical piece of the bureau’s reengineered
ing of certified and accredited systems. The two systems in our       strategy. Census originally planned to develop this equipment in-
review had undergone major changes since their certification          house but determined in early 2004 that it lacked the management
and accreditation in 2004, but the agency had not considered the      and technical resources to do so. It set a late-March 2006 date for
potential impact of the changes on the security of the systems, or    selecting a contractor to develop the system, and planned to use
evaluated the need to reaccredit. In addition, our examination of     information gained during field tests last summer and fall to refine
USPTO’s IT service contracts (see September 2005 Semiannual
Report, page 33) found, among other things, that no contractor IT
systems have been certified or accredited, a situation that could     3
                                                                       http://frwebgate.access.gpo.gov/cgi-bin/useftp.cgi?IPaddress=162.140.64.21&fil
place restricted information at risk.                                 ename=d06465t.pdf&directory=/diskb/wais/data/gao. Accessed April 7, 2006.




                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                               Major Challenges for the Department




contract requirements. However, bureau officials had no process for            conclusion on whether the internal controls are effective, a state-
transferring relevant information from the tests to the contract or            ment on identified material weaknesses, and management’s actions
identifying needed changes. So the contract was awarded without                to correct the weakness. This is no small task. Today’s automated
being modified to reflect lessons learned in the field tests. Should the       environments require rethinking what constitutes effective con-
need for changes to requirements emerge as the contract progresses,            trols, how they should be designed and implemented, and whether
the bureau’s costs for this key program are likely to grow.                    additional or alternative documentation and records are needed.
                                                                               OIG is participating in an advisory capacity in the assessment.
We are also reviewing USPTO’s acquisition management pro-
cedures and guidelines, looking at a sample of contracts worth                 Although we noted recent improvement in the Department’s
nearly $2.2 billion. Past work by our office and GAO has noted                 management and financial accountability as well as in program
that—in the critical area of automation—the agency sometimes                   and operational effectiveness, our audits continually indicate
took an ad hoc approach to planning and managing acquisition of                more work is needed to strengthen internal controls over pro-
systems, and failed to sufficiently analyze needs, alternatives, and           grams, operations, and administrative areas. Past reviews have
costs. Preliminary findings from our in-progress work indicate that            identified management and general control weaknesses, such as
while USPTO has high-level acquisition policies, it lacks specific             lack of guidelines for using travel and purchase cards; failure to
guidance for contracting officers.                                             recover full costs for reimbursable projects; fiscal and operational
                                                                               weaknesses disclosed in findings of questioned costs in financial
                                                                               assistance awards; and deficiencies in planning, legal review, and
                                                                               open competition in acquisition management.
Challenge 3

Strengthen Internal Controls                                                   Performance Measures
                                                                               and Internal Controls
Over Financial, Programmatic,
and Business Processes                                                         In this semiannual period, we completed an assessment of the
                                                                               Department’s progress implementing the 1993 Government Per-
Internal controls are the steps agencies take to make sure their               formance and Results Act (GPRA). (See page 41.) Commerce first
operations are effective, efficient, and in compliance with laws               began implementing GPRA in 1997, and in March 1999, we identi-
and regulations. Internal controls also ensure that financial re-              fied it as a top management challenge for the Department. From
porting is reliable, and assets are safeguarded from waste, loss,              September 2000 to September 2004, OIG issued eight separate
or misappropriation, according to the Office of Management and                 audit reports covering 45 performance measures reported by six
Budget (OMB). Two documents, the Federal Managers’ Financial                   Commerce bureaus. Those audits uncovered repeated instances
Integrity Act (FMFIA) and the 2004 revision of OMB Circular                    of ambiguous measures that either did not establish clear links
A-123 (Management’s Responsibility for Internal Control), set out              between the activity being measured and the agency’s actions or
internal control requirements for the federal government: Com-                 were stated in terms that did not appropriately represent perfor-
merce and all federal agencies must define and document major                  mance results. We also found cases of inadequate disclosure, and
financial internal control processes and test key financial controls           we identified insufficient management controls and procedures
to determine whether they are effective as of June 30, 2006.                   for verifying performance information.
In addition, Circular A-123 requires management to provide an as-
                                                                               Over the past several years, the Department has improved both the
surance statement on the internal controls over financial reporting
                                                                               utility and integrity of performance information. Because of this,
in its annual Performance and Accountability Report, including a
                                                                               we determined that Commerce and its bureaus had collectively
                                                                               taken sufficient steps to warrant the removal of GPRA implemen-
                                                                               tation from the list of Top 10 Management Challenges, although
   Without effective controls, “fraud, waste, and abuse                        we cautioned that management should continue to give attention
   in federal activities and programs lead to loss of                          to performance reporting.
   billions of dollars of government funds, erode public
   confidence, and undermine the federal government’s                          We expect the new federal emphasis on strong internal controls
   ability to operate effectively.”                                            to create a number of new demands for OIG reviews in the com-
                                                                               ing years. For example, new legislation passed in 2005 puts one
               —McCoy Williams, Director, GAO Financial Management and	        of the Department’s smaller agencies in a position of having to
            Assurance, April 15, 2004, in testimony before the Subcommittee	
                                                                               manage an enormous national project with an even larger budget
            on Government Efficiency and Financial Management Committee	
                         on Government Reform, House of Representatives        than had been anticipated.




March 2006/Semiannual Report to Congress	                                                                                                       
Major Challenges for the Department




                                                                            Challenge 4

                                                                            Ensure that Uspto Uses Its
                                                                            Authorities and Flexibilities
                                                                            as a Performance-based
                                                                            Organization to Achieve
                                                                            Better Results
                                                                            Since March 2000 when the Patent and Trademark Office Efficiency
Source: NTIA                                                                Act transformed USPTO into a performance-based organization
                                                                            designed to operate more like a private corporation than a govern-
New Law Will Alter NTIA’s Future                                            ment agency, OIG has paid close attention to a number of aspects
                                                                            of the organization’s internal management structures. USPTO now
The Digital Television Transition and Public Safety Act of 2005             is responsible for operational functions that once were controlled or
requires the FCC to auction recovered analog spectrum and deposit           monitored at the departmental level. To its credit, the bureau reports
the proceeds into a special fund, which is to be used for programs          it accomplished 75 percent of its key performance measures in FY
within the National Telecommunications and Information Admin-               2005, and it has had clean audit opinions for 13 consecutive years.
istration. Funding for the programs authorized by the act exceeds
$2.5 billion, an overwhelming responsibility for an agency of               But USPTO faces numerous challenges, such as a continuing
NTIA’s size. NTIA’s FY 2006 budget allows a little over $18 mil-            increase in applications, training about 1,000 newly hired examin-
lion for salaries and $22 million for existing grant programs.              ers in Patents and Trademarks, and transitioning to an electronic
                                                                            processing environment. In addition, USPTO’s expanded authority
Successfully implementing the act will constitute a significant             over personnel decisions and processes, procurement, and informa-
management challenge for the Department. Managing this level                tion technology operations needs to be fully utilized.
of budgetary growth in a short time period and establishing the
programs required by the act will be difficult. NTIA will also              GAO and OIG Reports
have to oversee the work of contractors who assist in the design            Highlight Concerns
and implementation of the programs. OIG will work closely with
NTIA as it begins to implement the requirements of the act. We              Two reports issued by the Government Accountability Office in
will share lessons learned from our work in other areas to help             June 2005 raised a number of management concerns. GAO reported
the agency design strong, well-structured programs and minimize             that USPTO does not have a fully integrated, electronic patent pro-
opportunities for fraud.                                                    cess planned despite spending more than $1 billion on the project




Newly hired patent examiners attend an orientation class. USPTO is hiring about 1,000 new patent examiners to handle increases in applications.
Source: USPTO




                                                                                       U.S. Department of Commerce/Office of Inspector General
                                                                                                                     Major Challenges for the Department




from 1983 through 2004. In addition, recent increases in both the
complexity and volume of patent applications have lengthened
the time it takes to process patents and raised concerns about the
validity of the patents USPTO issues. The report also concluded
that USPTO’s difficulty attracting and retaining qualified staff stems
from an ineffective management strategy for communicating and
collaborating with examiners, outdated assumptions about pro-
duction quotas and performance awards, and a lack of mandatory
continued technical training for patent examiners.

OIG has issued nearly a dozen reports examining problems at
USPTO since 2001. We have delved into systemic human resources
and program issues, and have examined USPTO’s computer sys-
tems security. A recent OIG evaluation found that while most
USPTO contracts include information technology security clauses,
important requirements are not implemented properly or are not
enforced. Our office is currently reviewing procurement criteria
and procedures that USPTO has been using because it is exempted
by the Patent and Trademark Office Efficiency Act from provisions
of the Federal Property and Administrative Services Act of 1949.

The bureau has taken decisive action to address some problems we
identified in the past, and we have been pleased that USPTO has
been receptive to our recommendations. But ultimately, we believe
the problems USPTO suffers are serious and require the sustained
commitment of senior managers to resolve. OIG will continue to
monitor the bureau’s progress in this transition.
                                                                                  A “lister” with a mobile computer waits at a door for respondents during the
                                                                                  Census Bureau’s 2006 field test in Austin, Texas.

Challenge 5                                                                       Source: OIG


Control the Cost and                                                              This semiannual report details our review of Census’s test of au-
Improve the Accuracy of the                                                       tomated address canvassing—an operation designed to keep the
Decennial Census                                                                  bureau’s address file and digital map database current and complete
                                                                                  (see page 19). During address canvassing, temporary staff (called
At an estimated cost of $11.3 billion, the 2010 census will be the                “listers”) equipped with handheld computers go into the field to
most expensive decennial to date, even after adjusting for infla-                 verify, update, add, or remove addresses; add and delete streets
tion. Key to the Census Bureau’s ability to conduct an accurate,                  to correct computer maps; and annotate address locations on the
comprehensive population count within budget is its reengineered                  maps. The information they collect has a direct bearing on the
design, which relies heavily on automating critical field operations.             bureau’s ability to accurately count the population.
The bureau established a rigorous testing schedule to monitor devel-
opment and implementation of the strategy’s key components, iden-                 Our review disclosed several problems that undercut the value of
tify problems, and incorporate solutions in time for the decennial.               the canvassing test, most notably, unreliable handheld computer
                                                                                  functions, including its GPS capabilities; inaccurate maps despite
                                                                                  an effort to correct them nationwide; insufficient quality control,
4
 U.S. Government Accountability Office, June 17, 2005. Intellectual Property:
Key Processes for Managing Patent Automation Strategy Need Strengthening,         training, and information sharing; and an inadequate focus on
GAO-05-336. Washington, D.C.: GAO.                                                outreach. In addition, Census had not sufficiently developed proce-
                                                                                  dures for deleting nonexistent streets, fully canvassing complicated
5
 U.S. Government Accountability Office, June 2005. Intellectual Property: USPTO
Has Made Progress in Hiring Examiners, but Challenges to Retention Remain,        blocks, updating mobile home sites, identifying rural addresses,
GAO-05-720. Washington, D.C.: GAO.                                                and manually placing map locations on the handheld units when
                                                                                  GPS could not be accessed.
6
 Department of Commerce, Office of Inspector General, Office of Systems Evalu-
ation, September 2005. U.S. Patent and Trademark Office: Information Security
in Contracts Needs Better Enforcement and Oversight, OSE-17455. Washington,       Also tested was a new quality control process that incorporates
D.C.: Department of Commerce OIG.                                                 the verification of address deletions made by listers into the



March 2006/Semiannual Report to Congress	                                                                                                                  
Major Challenges for the Department




canvassing operation, rather than performing this check after the
operation concludes, as has been the practice. Using this new
procedure, corrections can be made to the address list and maps
prior to Census Day.

Despite this and other enhancements, we concluded that the
bureau only partially achieved its test objectives. Census could
have earned a better return on its investment if it had fielded
more reliable handheld computers, tested areas where the postal
service (rather than the bureau) could deliver questionnaires to
reduce costs, and evaluated outreach efforts aimed at the hard-to-
enumerate American Indian population. Based on our observation
of this test, we believe the bureau should assess the viability and
cost-benefits of its decision to canvass nearly every household in
the country in 2010.

We are looking at several more 2006 test operations including
                                                                       NOAA, NASA, and Defense share oversight of NPOESS as members of the
update/enumerate at the Cheyenne River Reservation and Off-            executive committee and manage specific aspects of satellite development,
Reservation Trust Land in South Dakota. During this operation,         acquisition, and integration within the Integrated Program Office.
which is used in communities where residents are less likely to        Source: http://www.esipfed.org/business/library/meetings/12th_fed_meeting/docu-
return a completed questionnaire, enumerators update the address       ments/Mike_Haas_Pres.ppt#283,5,Tri-Agency Management Structure
lists and maps, and interview a resident to complete a questionnaire
for each housing unit. We are also assessing the bureau’s progress
in improving the method for designating which communities              The National Weather Service is the main customer for the satellite
require this type of enumeration. Finally, we are reviewing the        data, which it uses to provide weather, hydrologic, and climate
group quarters operation in Travis County, Texas, which enumer-        forecasts and warnings that can be used by other governmental
ates individuals residing in group facilities, such as dormitories,    agencies, the private sector, and the global community.
prisons, and nursing homes.
                                                                       Since 1994 the Department of Commerce, Department of De-
                                                                       fense, and National Aeronautics and Space Administration have
                                                                       been working to develop the National Polar-orbiting Operational
Challenge 6                                                            Environmental Satellite System (NPOESS), the nation’s first polar
                                                                       orbiting system that will meet both civilian and defense environ-
Effectively Manage the                                                 mental data needs. Slated to replace POES, NPOESS is considered
                                                                       critical to the United States’ ability to maintain the continuity of
Development and Acquisition                                            data required for weather forecasting and global climate monitor-
of Environmental Satellites                                            ing through the year 2020.

Over the next 5 years, the Department, through the National Oce-       Complex, high-cost acquisitions such as these are extremely dif-
anic and Atmospheric Administration, will spend several billion        ficult to manage within cost and schedule goals. Given the billions
dollars in contracts for the purchase, construction, and moderniza-    of dollars at stake in the NOAA satellite projects and their impor-
tion of environmental satellites. Two of these systems, operated by   tance to public safety and economic stability, we believe these
NOAA’s National Environmental Satellite, Data and Information          programs require continuous scrutiny. We have therefore added
Service (NESDIS), collect data to provide short- and long-range        satellite development and acquisition to our list of top challenges
weather forecasts and a variety of other critical environmental and    facing the Department.
climate information. Geostationary Operational Environmental
Satellites (GOES) generate near-term data for the continental
                                                                       NPOESS Program Well Over Budget
United States and Hawaii. Polar Operational Environmental Sat-
                                                                       and Behind Schedule
ellites (POES) provide full global data for short- and long-range
forecast models, climate modeling, and various other purposes.
                                                                       We are currently conducting an audit of the NPOESS program,
                                                                       which focuses on how the contractor and program managers
                                                                       identify and communicate problems to NOAA senior officials,
7
    http://www.osec.doc.gov/bmi/Budget/05APPR/PAR05.pdf, page 210.     and whether the contract’s award fee structure is appropriate and
8
    http://science.hq.nasa.gov/missions/satellite_64.htm.              effective.



                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                          Major Challenges for the Department




Problems developing new sensors for NPOESS have inflated costs          For GOES-R, NOAA is following a three-phase acquisition pro-
and delayed the schedule significantly. The original cost estimate      cess—concept development, program definition and risk reduc-
of $6.9 billion now stands at $9.7 billion, according to a GAO es-      tion, and acquisition and operations. Another big change is that
timate. When the contract for integrating the satellite systems was     NOAA is issuing and managing the prime system contract—a
awarded in 2002, the delivery date for the first NPOESS satellite       role NASA handled in the GOES I-M and follow-on GOES N-P
was March 2008; the current projection is late 2011, at best.           acquisition. For GOES-R, NASA will continue to focus on the
                                                                        technical aspects of the acquisition as the manager of contracts
The Nunn-McCurdy provision of the FY 1982 National Defense              for satellite sensors. The Department will monitor the program
Authorization Act requires the Secretary of Defense to notify           and has approval authority for advancing to the next acquisition
Congress when unit costs for a major acquisition program such           phase. GOES-R is currently in the program definition and risk
as NPOESS grow by 15 percent over original baseline estimates.         reduction phase, with contract award for acquisition and operations
Should costs grow by 25 percent, the act requires the Secretary         scheduled for late 2007.
to certify in writing that the program is essential to national secu-
rity and the most cost-effective option, the new cost estimate is       In October 2005, NOAA awarded three contracts for the program
reasonable, and a management structure is in place to adequately        definition and risk reduction phase. Each contractor will refine
control unit costs.                                                     the GOES-R concept, design strategies for managing risk, and
                                                                        develop baseline plans for implementation. We intend to monitor
In November 2005, an estimate prepared for NPOESS by Defense            contract activities, identify key early stage program challenges,
showed that cost growth had exceeded 25 percent, triggering the         and determine whether NOAA is taking appropriate measures to
Nunn-McCurdy certification requirement. Failure to provide the          meet them.
certification will terminate DOD’s involvement in the program
and have a devastating impact, given that DOD provides half the
program’s funding.
                                                                        Challenge 7
Despite these huge cost and schedule overruns, the prime con-
tractor has collected millions of dollars in incentive payments         Promote Fair Competition
(“award fees”). Our initial audit findings suggest that the award       in International Trade
fee structure is seriously flawed because it allows the contractor to
collect incentive payments even for unsatisfactory performance,         The Department of Commerce accomplishes its goals of promoting
and that management failed to question optimistic program assess-       trade, opening overseas markets to American firms, and protect-
ments when progress reports indicated serious cost and schedule         ing U.S. industry from unfair competition by imports primarily
overruns.                                                               through the work of the International Trade Administration. Over
                                                                        the past several years, OIG has focused a number of reviews on
Oversight of GOES-R                                                     the Department’s efforts to increase U.S. market opportunities,
Development Under Way                                                   provide assistance to U.S. exporters, and overcome trade barriers
                                                                        in difficult foreign markets.
GOES-R is the next-generation Geostationary Operational En-
vironmental Satellite series scheduled for initial launch in 2012.      U.S. Trade with China
This new series will have enhanced sensing capabilities that of-
fer an uninterrupted flow of high-quality data to support weather       China has one of the world’s fastest growing economies, making
forecasting, severe storm detection, and climate research vital to      its market an attractive one for U.S. businesses. While U.S. exports
public safety. The fiscal year 2006 through 2010 cost is projected      to China have increased rapidly in the past 3 years, this growth
to be about $2 billion.                                                 has not kept pace with the growth in Chinese imports. Between
                                                                        2002 and 2005, the U.S. trade deficit with China almost doubled,
Building a new satellite series within schedule and budget con-         reaching $201.6 billion in calendar year 2005.10 This deficit is a
straints requires a structured acquisition process. When key steps      major concern of the U.S. government and business sectors, both
are skipped, schedule and cost can dramatically increase. In acquir-    of which find that China’s intellectual property rights enforcement,
ing the GOES I-M series in the 1980s and 1990s, NOAA made               currency valuation, technical barriers to trade, restrictions on
technical assumptions without assessing ways to reduce risks—a
major reason why completing the acquisition took twice as long
as expected and cost an additional $1 billion.
                                                                        10
                                                                          U.S. Census Bureau, Trade in Goods (Imports, Exports and Trade Balance)
                                                                        with China, see www.census.gov/foreign-trade/balance/c5700.html, accessed
9
    10 USC § 2433.                                                      February 13, 2006.




March 2006/Semiannual Report to Congress	                                                                                                     
Major Challenges for the Department




                                                                      Challenge 8

                                                                      Effectively Manage Noaa’s
                                                                      Stewardship of Ocean and
                                                                      Living Marine Resources
                                                                      The National Oceanic and Atmospheric Administration is charged
                                                                      with monitoring the health of our nation’s ocean, coastal, and Great
                                                                      Lakes resources; administering civilian ocean programs; and pro-
                                                                      tecting and preserving the nation’s living marine resources through
                                                                      scientific research, fisheries management, enforcement, and habitat
                                                                      conservation. NOAA also will have to deal with impacts from the
                                                                      2005 storms on Gulf Coast aquatic ecosystems for many years to
                                                                      come, from assessing the hurricanes’ effects on habitat and fisheries
                                                                      to recording the diminished numbers and redistribution of native
                                                                      species and damage to coastal wetlands.

                                                                      During this semiannual period, we followed up on our audit of
                                                                      the National Marine Fisheries Service’s (NMFS’) preparation of



Source: http://www.export.gov/china/images/mainpic.gif




trading and distribution rights, and closed regulatory environment
contribute to the continuing U.S.-China trade imbalance.

During this semiannual period, we focused on Commerce’s
trade-related activities in China. (See page 23.) We visited China
in September 2005 to review the U.S. Commercial Service (CS)
offices in Beijing, Shanghai, Guangzhou, Chengdu, and Shenyang.
We evaluated the effectiveness of CS’ coordination with other
Commerce bureaus operating in China, as well as its cooperation
with other governmental and nongovernmental stakeholders. We
also reviewed the post’s claimed export success statistics, efforts
in the area of intellectual property rights and market access, the
new American Trading Center initiative, and other programmatic
and administrative issues.

Overall, we found that the post is generally doing a good job of
providing export assistance to U.S. companies and collaborates
well with its trade partners, other components of the U.S. mis-
sion, the Department, and other government agencies, but we did
identify a number of issues that warrant management attention.
We issued 3 recommendations to the Secretary and more than 32
to the Under Secretary for International Trade and Assistant Sec-
retary and Director General of CS that we believe will improve
Commerce’s operations in China.
                                                                      The California Central Valley Project is one of the largest water projects in
                                                                      the nation. Begun in 1935 by the federal government to irrigate and protect
                                                                      California’s central valley, it provides water to irrigate 3.7 million acres and
                                                                      its power plants can produce up to 1.4 million kilowatts of electricity.
                                                                      Source: http://esrpweb.csustan.edu/gis/maps/cvp_swp_sjv.jpg




10                                                                                 U.S. Department of Commerce/Office of Inspector General
                                                                                                         Major Challenges for the Department




a biological opinion for California’s Central Valley Project, one of     The Department of Commerce has a dual responsibility in this
the nation’s major water conservation efforts (see September 2005        arena: not only must it be ready to protect 35,000+ employees and
Semiannual Report, page 21). In response to our audit recommen-          hundreds of facilities, but because several Commerce programs
dations, NOAA commissioned two independent scientific reviews            are critical to national preparedness and recovery efforts, it must
of the opinion, both of which found the scientific information           support U.S. efforts to prepare for, respond to, and promote re-
used in the biological opinion was not the best available. In light      covery from major disasters. The President’s National Response
of these findings, we asked NOAA officials to submit to us a plan        Plan assigns responsibilities to several Commerce agencies. For
that identifies actions they will take to address the deficiencies and   example, NTIA gives on-call support to the federal emergency
implement the related recommendations made by the independent            communications coordinator and keeps radio frequencies open
review organizations.                                                    during emergencies. NOAA issues long- and short-term forecasts
                                                                         about severe weather events and assesses areas of greatest marine
We also continued our series of reviews of salmon recovery pro-          or atmospheric hazard in their aftermath. The Economics and
grams, auditing a tribal subgrantee funded by NOAA’s Pacific             Statistics Administration assesses the economic impacts of major
Coastal Salmon Recovery Fund. Much like the audits we detailed           natural and manmade disasters.
in our 2004 and 2005 semiannual reports, we questioned costs and
noted some administrative weaknesses. (See page 30.)                     We continue to monitor Commerce’s progress in resolving de-
                                                                         partmental emergency preparedness and security weaknesses
Future challenges include NOAA’s efforts as a steward of marine          we identified in assessments conducted in 2002 and 2005 (see
resources, the agency’s consultation process, and its management         March 2002 and September 2005 semiannual reports, pages 77
of fisheries and marine mammals.                                         and 37, respectively). Although Commerce has made significant
                                                                         improvement in emergency preparedness to address vulnerabilities,
                                                                         we found, among other things, the need for better departmental
                                                                         guidance and oversight of emergency programs, risk assessments,
Challenge 9                                                              occupant emergency plans, and security forces at its domestic
                                                                         operations, as well as better oversight of security upgrades and
Aggressively Monitor                                                     greater attention to security at its overseas offices.
Emergency Preparedness,
Safety, and Security
Responsibilities                                                         Challenge 10
The damage and disruption                                                Enhance Export Controls
caused by the Gulf Coast hur-
ricanes last summer intensified
                                                                         for Dual-use Commodities
scrutiny of federal preparedness
                                                                         The Bureau of Industry and Security (BIS) administers the U.S.
to a level not seen since 9/11.
                                                                         dual-use export licensing and enforcement system designed
These disasters rightly raised se-
                                                                         to prevent hostile nations and terrorist groups from acquiring
rious questions about the nation’s
                                                                         technologies and materials that have both civilian and military
readiness to respond to emergen-
                                                                         applications. But how effective are existing export controls? And
cies—whether natural or man-
                                                                         how can we prevent export control policies and practices from
made—given the attention and
                                                                         hampering U.S. trade opportunities and competitiveness but still
resources dedicated to security
                                                                         protect U.S. national security and foreign policy interests? Strik-
and preparedness by all levels
                                                                         ing an appropriate balance remains a significant challenge for BIS
of government over the past 4
                                                                         and Commerce.
years. They underscored the need
for and responsibility of agencies
                                                                         The National Defense Authorization Act (NDAA) for FY 2000
to maintain robust emergency
                                                                         directed the inspectors general of Commerce, Defense, Energy, and
preparedness programs and di-
                                                                         State, in consultation with the directors of the Central Intelligence
saster recovery plans to protect
                                                                         Agency and Federal Bureau of Investigation, to report to Con-
their employees, facilities, and
                                                                         gress each year through 2007 on the adequacy and effectiveness
critical operations.
                                                                         of existing export controls and whether they effectively prevent
                                                                         entities of concern from acquiring sensitive U.S. technologies.
Source: http://www.dhs.gov/interweb	                                     (The Office of Inspector General at the Department of Homeland
/assetlibrary/NRP_Brochure.pdf




March 2006/Semiannual Report to Congress	                                                                                               11
Major Challenges for the Department




                                                                            China. According to the former acting Under Secretary for Industry
                                                                            and Security, the security concerns the U.S. has about China stem
                                                                            from the risk of diverting sensitive dual-use items and technology
                                                                            to Chinese military programs as the country carries out its stated
                                                                            plan to modernize its conventional military forces. He further stated
                                                                            that the prospect of “immense potential benefits from expanding
                                                                            trade” heightens such concerns and intensifies the challenges to
                                                                            U.S. dual-use export controls, which were never intended to be
                                                                            connected to economic policy.11

                                                                            Our 2006 review also assessed whether (1) the federal agencies
                                                                            that handle the dispute resolution process for review of license
                                                                            applications for exports to China coordinate effectively, (2) there
                                                                            is potential for diversion of sensitive commodities from Hong
                                                                            Kong to China, and (3) the end-use check program is effective.
                                                                            The 2006 review also examined what activities Commerce bureaus
                                                                            are engaged in pursuant to the 1979 U.S. and China Science and
Components of the high-tech Neutron Spin Echo Spectrometer at the NIST
                                                                            Technology Agreement and whether they are adhering to export
Center for Neutron Research in Gaithersburg, Maryland, are controlled for
national security reasons, but they are tightly encased and could not be    control regulations. (See page 13.)
easily observed.
Source: NIST
                                                                            Our review determined that the various federal export licensing
                                                                            agencies coordinate adequately during the dispute resolution
                                                                            process for China export license applications, but we identified a
                                                                            number of weaknesses in BIS’ administration of export controls
Security also has participated since its establishment in 2003.) In
                                                                            involving that country. We recommended some actions we believe
addition, NDAA for FY 2001 required the inspectors general to
                                                                            will address these weaknesses. The bureau generally agreed and
report on the status or disposition of recommendations made in
                                                                            outlined some of the work it already is doing to improve them.
prior NDAA reports.
                                                                            As part of our follow-up, we also examined the status of recom-
China’s Military Plans Cause Concerns                                       mendations from our six prior reviews and determined that 24
About Export Controls                                                       recommendations remain open, but BIS and other Commerce
                                                                            bureaus have made significant progress on a number of them since
With six of the eight required reviews completed, Commerce                  our March 2005 report. We will continue to monitor BIS’ efforts to
OIG turned its attention to an area of immense concern to meet              improve dual-use export controls in FY 2007, when we complete
the NDAA’s FY 2006 requirement—evaluating the effectiveness                 the last of these reviews.
of U.S. controls on exports of dual-use goods and technology to




                                                                            11
                                                                              Testimony of former Acting Under Secretary for Industry and Security Peter
                                                                            Lichtenbaum at the U.S.-China Economic and Security Review Commission Hear-
                                                                            ing, June 23, 2005. Accessed April 4, 2006, at http://www.bis.doc.gov/news/2005/
                                                                            USChinaReview.htm.




12                                                                                       U.S. Department of Commerce/Office of Inspector General
